   March 29, 2002




Acquisition

Controls Over the DoD Purchase
Card Program
(D-2002-075)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
            Additional Copies

            To obtain additional copies of this report, visit the Inspector General, DoD,
            Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
            Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
            (DSN 664-8937) or fax (703) 604-8932.

            Suggestions for Audits

            To suggest ideas for or to request audits, contact the Audit Followup and
            Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
            fax (703) 604-8932. Ideas and requests can also be mailed to:

                              OAIG-AUD (ATTN: AFTS Audit Suggestions)
                               Inspector General, Department of Defense
                                  400 Army Navy Drive (Room 801)
                                      Arlington, VA 22202-4704

            Defense Hotline

            To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
            424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
            writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
            identity of each writer and caller is fully protected.




Acronyms
DFAS               Defense Finance and Accounting Service
GAO                General Accounting Office
GSA                General Services Administration
IG                 Inspector General
OMB                Office of Management and Budget
PMO                Program Management Office
USD(AT&L)          Under Secretary of Defense for Acquisition, Technology, and Logistics
USD(C)             Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2002-075                                                   March 29, 2002
  (Project No. D2001FG-0068)

              Controls Over the DoD Purchase Card Program
                                Executive Summary

Introduction. The first Government-wide purchase card contract was awarded by the
General Services Administration in 1989 and DoD entered the program at that time.
On October 13, 1994, the President of the United States issued Executive Order 12931
to increase the use of purchase cards for actions under $2,500. Purchases under $2,500
were chosen partly because these types of buys were generally less complex and did not
require extensive procurement knowledge; and goods were often available for
immediate delivery.

Between FY 1996 and FY 2001, over 300 audit reports identified a wide range of
implementation problems in the DoD Purchase Card Program. Nevertheless, the
program remained an important part of DoD acquisition streamlining efforts.

Objective. Our objective was to evaluate the issuance and use of purchase cards and
the controls over the processing of purchase card payments. We also reviewed the
overall management control program as it related to the purchase card program.
During our review, we examined the controls for issuing and using 231,856 purchase
cards. We also selectively reviewed the controls over the processing of more than
10.6 million purchases amounting to $6.1 billion in FY 2001. In addition, we reviewed
over 12,000 convenience checks totaling in excess of $27 million.

Results. The Purchase Card Joint Program Management Office needed to improve
oversight and management controls over the 231,856 purchase cards in use and
10.6 million purchases made in FY 2001. Improved controls were needed over:

     •   selecting cardholders (29,120 purchase cards were unused for 6 months),

     •   assigning approving officials (3,463 approving officials oversaw more than
         7 cardholder accounts each and 31 of these approving officials oversaw more
         than 100 cardholder accounts),

     •   setting of spending limits (6,533 cardholder accounts had a monthly spending
         limit of over $100,000),

     •   transactions at blocked businesses (over $4 million in transactions appeared to
         have been made at businesses that should have been blocked by the bank as
         inappropriate),

     •   purchases declined by banks (687 cardholder accounts had 10 or more declined
         purchases in a month),
     •   purchases made after card accounts were closed (transactions occurred on
         390 closed accounts in a month), and

     •   management of convenience checks (248 of 12,008 checks written in a
         20-month period exceeded the $2,500 authorized limit).

These conditions did not necessarily mean that fraud, waste, or mismanagement of
purchase cards or checks had occurred. Some conditions could be data entry errors,
but the absence of internal controls increases the risk for fraud, waste, or
mismanagement. Although identified misuse was small in comparison to the volume of
annual purchases, controls were not robust and only through more proactive oversight
can the DoD ensure the integrity of the program. For details of the audit results, see
the Finding section of the report. See Appendix A for details on the management
control program.

Management Actions. During the audit, the Director, Defense Procurement and the
Director, Purchase Card Joint Program Management Office took corrective actions to
strengthen controls over the purchase card program. In particular, controls pertaining
to the supervision of cardholders and restricting purchases from inappropriate
businesses were strengthened. In addition, the Director, Defense Procurement
requested assistance from the Inspector General, DoD, in obtaining audit results on the
purchase card program to assist in managing the program, tracking fraud, and
identifying trends of misuse. Further, on March 12, 2002, the Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Under Secretary of
Defense (Comptroller) issued a joint memorandum that emphasized the need for all
DoD organizations to maintain adequate internal review programs and to investigate
potential abuse of the purchase card and take appropriate corrective and disciplinary
actions.

On March 27, 2002, the Under Secretary of Defense (Comptroller) held a press
conference to highlight actions directed by the Secretary of Defense to strengthen
controls over purchase cards. These actions included the creation of a taskforce to be
lead by the Comptroller to improve management of credit cards by punishing
wrongdoers, developing reforms, improving training, and ensuring that senior
management enforce controls of credit cards. The taskforce recommendations for
proposed legislation and administrative changes needed for improvement are expected
within 60 days.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics coordinate with the Under Secretary of
Defense (Comptroller) to develop standardized training and update the program policies
and procedures with internal controls addressed in this report. Also, we recommend
that the Director, Defense Procurement, issue guidance on limiting the amounts for
single purchases and modify the purchase card contract to block inappropriate
businesses from use by cardholders. We recommend the Director, DoD Purchase Card
Joint Program Management Office, review controls over issuing, using, and closing
purchase card accounts. Also, we recommend that the Director design and test controls
over the use of convenience checks and to verify the accuracy of data in bank computer
systems.

                                           ii
Management Comments. The Director, Defense Procurement generally concurred
with the audit findings and the intent of all the recommendations. The Director
concurred with developing standardized training and updating program policies and
procedures with internal controls addressed in this report, but non-concurred with
modifying the purchase card contract regarding convenience checks and reopening of
closed accounts.

Audit Response. The corrective actions initiated will improve the controls for the
program. We believe there are actions that can be taken regarding convenience checks
and reopening closed accounts. As a result, we request that the Director, Defense
Procurement comment on these issues by April 30, 2002.




                                         iii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objective                                                             2

Finding
     Controls Over the DoD Purchase Card Program                           3

Appendixes
     A. Audit Process
         Scope                                                            28
         Methodology                                                      28
         Management Control Program Review                                29
         Prior Coverage                                                   31
     B. Organization of the DoD Purchase Card Program                     32
     C. Approving Officials Responsible for More Than 100 Cardholder
        Accounts                                                          33
     D. Cardholders Authorized to Approve and Certify Their Own
        Payments                                                          34
     E. Report Distribution                                               35

Management Comments
     Under Secretary of Defense, Acquisition, Technology, and Logistics   37
Background
    Federal Purchase Card Program. The first Government-wide purchase card
    contract was awarded by the General Services Administration (GSA) in 1989.
    DoD entered the program at that time. On October 13, 1994, the President of
    the United States issued Executive Order 12931 mandating increased use of
    purchase cards for micro-purchases (purchases under $2,500). Micro-purchases
    were chosen partly because these types of buys were generally less complex and
    did not require extensive procurement knowledge; and goods were often
    available for immediate delivery.

    Government-wide purchases with the purchase card grew from $1.6 billion in
    1995 to more than $12 billion in 2000. GSA, the agency responsible for the
    Government-wide purchase card program, reports that the Government saves
    approximately $1.2 billion annually in administrative costs by using purchase
    cards. In addition, the program earned the Government rebates in excess of
    $50 million in FY 2000 by paying for purchases promptly.

    Federal Acquisition Regulation, part 13, “Simplified Acquisition Procedures,”
    August 7, 2000, states that purchase cards should be the preferred method for
    purchases under $2,500. Purchase cards are also preferred for making contract
    payments.

    Purchase Card Joint Program Management Office. The Deputy Secretary of
    Defense established the DoD Purchase Card Joint Program Management Office
    (PMO) in March 1998. The PMO is staffed with representatives from each of
    the Military Departments, the Defense Logistics Agency, and the Defense
    Finance and Accounting Service (DFAS). The PMO reports directly to the
    Director, Defense Procurement, within the office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD[AT&L]). Finance
    and accounting issues are coordinated with the Under Secretary of Defense
    (Comptroller) (USD[C]).

    The Deputy Secretary of Defense directed the PMO to promote purchase card
    use, setting a goal that purchase cards be used for 90 percent of micro-purchases
    by FY 2000. The PMO reported that the goal was met in FY 1999, and
    exceeded by 5 percent in FY 2000. In addition, the PMO reported earning
    rebates, from prompt payment of purchases, amounting to $20 million in
    FY 1999. USD(AT&L) directed the PMO to coordinate contract requirements
    with GSA, reduce delinquencies, deploy a standard DoD-wide card management
    and reconciliation system, and develop a DoD-wide training program.

    DoD organizations are responsible for distributing cards, training employees,
    and day-to-day management of the purchase card program. Each participating
    organization designates an office to manage the program, including assuring
    training is provided, a current list of cardholders and approving officials is
    maintained, and an annual oversight review of the program is performed.

    How the DoD Program Works. DoD selected Citibank and the U.S. Bank to
    process its purchase card transactions. The GSA contract requires Citibank and
    the U.S. Bank to develop guidance on duties and responsibilities for employees
    involved in the Government-wide purchase card program. Following those

                                        1
           guidelines, DoD appointed agency program coordinators1 with the responsibility
           for program management at the installation, major command, and Component
           levels. Coordinators issue purchase cards, establish limits on spending, and
           monitor use of a purchase card account.

           Also, DoD employees are assigned as “approving officials” to authorize and
           approve purchases for payment. Once a cardholder makes an authorized
           purchase, the cardholder and the approving official reconcile the purchased
           goods and services with the bank statement prior to the approving official
           requesting payment by DFAS. See Appendix B for additional details on the
           organization of the DoD Purchase Card Program.

           Congressional Interest. Weaknesses in the DoD purchase card program came
           to the attention of both Congress and the General Accounting Office (GAO)
           during 2001 and 2002. The House of Representatives Subcommittee on
           Government Efficiency, Financial Management, and Intergovernmental
           Relations conducted hearings on July 30, 2001, and March 13, 2002. At the
           hearings, Senator Charles Grassley testified to the lack of internal controls over
           the DoD Purchase Card Program. GAO testified on program abuses at two
           Navy locations that were caused by significant breakdowns in purchase card
           controls. GAO specifically cited these breakdowns as contributors to fraudulent
           and abusive spending, theft, and misuse of Government property.

           Other DoD Reviews of Purchase Card Program. The Inspector General (IG),
           DoD, and audit organizations in the Military Departments issued more than 300
           reports on purchase cards between FYs 1996 and 2001. IG, DoD, Report
           No. D-2002-029, “DoD Purchase Card Program Audit Coverage,”
           December 27, 2001, identified systemic issues within the purchase card
           program. These systemic issues included account reconciliation and
           certification, administrative controls, management oversight, property
           accountability, purchase card use, purchases, separation of duties, and training.

Objective
           The audit objective was to evaluate the appropriateness of the issuance and use
           of purchase cards and the controls over the processing of purchase card
           payments. We also reviewed the management control program as it related to
           the overall objective. See Appendix A for a discussion of the audit scope and
           methodology, the review of the management control program, and prior
           coverage.


1
    Agency program coordinators are responsible for the implementation and execution of the purchase card
    program in accordance with established DoD regulations, policies, and procedures.




                                                     2
Controls Over the DoD Purchase
Card Program
The Purchase Card Joint Program Management Office needed to
improve oversight and management controls over 231,856 purchase
cards and 10.6 million purchases in FY 2001. Analysis of purchase card
and convenience check data for FYs 2000 and 2001 indicated that
improved controls were needed over:

       •   selecting cardholders (29,120 purchase cards were unused for
           over 6 months),

       •   assigning approving officials (3,463 approving officials
           oversaw more than 7 cardholder accounts each and 31 of
           these approving officials oversaw more than 100 cardholder
           accounts),

       •   setting of spending limits (6,533 cardholder accounts had a
           monthly spending limit of over $100,000),

       •   transactions at blocked businesses (over $4 million in
           transactions appeared to have been made at inappropriate
           businesses that should have been blocked by the bank),

       •   purchases declined by banks (687 cardholder accounts had 10
           or more declined purchases in a month),

       •   purchases made after card accounts were closed (transactions
           occurred on 390 closed accounts in a month), and

       •   management of convenience checks (248 of 12,008 checks
           written in a 20-month period exceeded the $2,500 authorized
           limit).
These conditions did not necessarily mean that fraud, waste, or
mismanagement of purchase cards or checks had occurred. Some
conditions could be the result of data entry errors, but the absence of
internal controls increases the risk for fraud, waste, or mismanagement.

These conditions occurred because internal controls were not sufficient
or effective, policies and procedures for the program were nonexistent,
incomplete, or not followed, and program management and oversight did
not ensure that standardized training was provided or that required
annual oversight reviews were conducted.

As a result, although the identified misuse was small in comparison to
the volume of annual purchases, management controls were not robust
and only through more proactive oversight can DoD ensure the integrity
of the program.




                            3
Program Controls
            Managers need to examine internal controls to determine how well a program is
            performing, how it may be improved, and the degree to which controls help
            identify and address major risks for fraud, waste, abuse, and mismanagement.
            Office of Management and Budget (OMB) Circular No. A-123, “Management
            Accountability and Control,” June 1995, states that Federal agencies have the
            responsibility to ensure that resources are used efficiently and effectively, and
            with minimal potential for fraud, waste, and abuse. Further, the Circular states
            that controls such as policies and procedures are tools to help managers achieve
            results and safeguard the integrity of programs.

            The DoD PMO needed to improve oversight and management controls over the
            purchase card program. We examined the controls for issuing and using
            231,856 purchase cards. We also selectively reviewed the controls over the
            processing of more than 10.6 million purchases amounting to $6.1 billion in
            FY 2001. In addition, we reviewed more than 12,000 convenience checks
            totaling more than $27 million. Improved controls were needed over the
            following aspects of the program:

                •   selecting cardholders and assigning approving officials,

                •   setting of spending limits,

                •   blocking and declining inappropriate purchases,

                •   purchases made after card accounts were closed, and

                •   managing convenience checks.

Selecting Cardholders and Assigning Approving Officials
            Controls over purchase cards were not sufficient to prevent organizations from
            issuing cards to employees without a valid need. Organizations also did not
            limit the number of cardholder accounts and transactions managed by an
            approving official.

            According to the DoD Purchase Card PMO, each DoD organization was
            responsible for establishing controls, such as policies and procedures, for
            distributing purchase cards. Also, each DoD organization was responsible for
            selecting approving officials2 and determining the number of cardholders
            assigned to each approving official.

            Distribution of Cards Based on Need. According to the PMO, purchase cards
            may be issued to any individual that a DoD activity deems appropriate. As of
            September 30, 2001, DoD had 231,856 current purchase card accounts. The

2
    The U.S. Bank uses the term “billing official” and Citibank uses “approving official” for an individual
    responsible for ensuring buys with a purchase card are authorized, documented, and certified for
    payment. For consistency, we will use the term “approving official” in this report.

                                                       4
audit determined, however, that 29,120 purchase cards were not used within a
6-month period. This lack of usage indicated the cards probably were not
needed by the cardholders.

Better controls were needed to ensure that purchase cards were issued only to
employees with a valid need to make purchases. In addition, controls should be
in place to monitor the use of cards and to rescind unused cards. Without
guidance requiring an employee to demonstrate the need for a card or
withdrawal of cards unused for a specific period, the risk increases for card
misuse.

Number of Cardholders Managed by Approving Officials. Some approving
officials managed more than 100 cardholder accounts. Approving officials are a
key control in the purchase card process because these officials verify the need
for purchases and review the accuracy of monthly bills. Table 1 displays the
number of cardholder accounts per approving official within DoD.

     Table 1. Number of Cardholder Accounts per Approving Official
                         (as of May 31, 2001)
 Number of Cardholder                 Number of Approving Officials
 Accounts per Approving   Army      Navy   Air Force      Defense      Total
        Official                                       Organizations

   1 to 7                 18,893       6,963   14,907         2,584     43,347

   8 to 20                 1,508        283      950            102      2,843

   21 to 99                 287          41      240             21        589

   100 or more               21           3        4              3            31

     Total                20,709       7,290   16,101         2,710     46,810


On July 5, 2001, the PMO issued policy guidance stating that approving
officials should normally be responsible for five to seven cardholders. Although
only 7.4 percent of the approving officials managed more than 7 cardholder
accounts (3,463 of 46,810 approving officials), 31 approving officials managed
more than 100 cardholder accounts each. (Appendix C lists DoD organizations
with approving officials responsible for more than 100 cardholder accounts.)
Although the 31 approving officials may satisfactorily review and process bills
for 100 cardholder accounts each, a large number of transactions on the bills
may hinder a complete review.

        Purchase Transactions Processed by Approving Officials. These 31
approving officials processed more than 22,150 transactions in May 2001.
However, the number of transactions managed by each approving official varied
significantly. For example, an approving official at the U.S. Air Force
Education and Training Command was responsible for 105 cardholder accounts
that collectively had only 2 purchases totaling $28,067 in May 2001. However,
an approving official at the Army Corps of Engineers was responsible for
489 accounts that had 3,606 transactions totaling $1,490,338 in May 2001.

                                   5
     We selected two approving officials with more than 100 cardholder accounts
     (one at the Naval Surface Warfare Center in Indian Head, Maryland, and
     another at the Walter Reed Army Medical Research Acquisition Activity,
     Forest Glen, Maryland) to assess how effectively approving officials reviewed
     transactions.

             Naval Surface Warfare Center. At the Naval Surface Warfare Center,
     an agency program coordinator also performed the duties of an approving
     official. This approving official certified all bills but only reviewed about
     30 percent of the bills each month (the official was responsible for
     144 cardholder accounts in May 2001 and 170 accounts in October 2001).

     For May 2001, the approving official certified 1,926 transactions for
     $1.3 million. We were told that the official was certifying more than
     100 accounts because past experience showed that using multiple approving
     officials created delinquencies and reduced rebates. However, because the
     official was certifying unreviewed bills, the risk of inappropriate purchases
     increased.

             Walter Reed Army Medical Research Acquisition Activity. The
     approving official at Walter Reed was responsible for 102 cardholder accounts
     that processed 1,720 transactions totaling $706,196 for May 2001. However,
     the approving official was not certifying all transactions. Thus, inappropriate or
     unsupported purchases were more likely to occur.

     Impact of Account Reviews on Prompt Payment of Bills. Approving officials
     responsible for a large number of cardholder accounts and transactions were
     more likely to have insufficient time to process the bills for payment and to have
     bills become delinquent. As presented in Table 2, approving officials with
     seven or more accounts were delinquent in making $10.6 million in payments.

       Table 2. Approving Officials Managing 7 or More Cardholder Accounts
                 (Accounts With Delinquencies as of May 31, 2001)
                                         Number of Days Delinquent
     DoD           Number of         1 to 30          31 to 60     61 to 90    91 to 120     Total
  Organization     Approving
                    Officials
 Army                       64     $2,017,157        $1,475,505    $79,511       $4,332     $3,576,505
 Navy                       51      6,124,829           652,976     31,908        2,421      6,812,134
 Air Force                    8       167,128            25,352        599          854        193,933
 Other Defense                1             0                79          0            0             79
 Organizations
    Total                124       $8,309,114     $2,153,912       $112,018       $7,607   $10,582,651
There were no accounts more than   120 days delinquent for these approving officials.


     The 124 approving officials shown in Table 2 represent only 3.6 percent of the
     total number of approving officials responsible for more than 7 cardholder
     accounts and only .3 percent of all approving officials in DoD. However, these
     124 approving officials were responsible for $10.6 million (29 percent) of the
     total $36.9 million of delinquent transactions as of May 31, 2001. If approving


                                                 6
officials are responsible for reviewing too many transactions, the risk increases
for delinquent payments.

Management Controls Needed. The Director, Defense Procurement, needs to
require DoD organizations participating in the purchase card program to require
employees to demonstrate the need for a purchase card. The PMO needs to
direct agency program coordinators to review card use at least quarterly and
cancel unneeded cards. The PMO also needs to ensure increased oversight over
approving officials managing more than seven cardholder accounts or comply
with the seven cardholder account limit.

Approving Officials. DoD organizations use guidance developed by Citibank
and the U.S. Bank to assign purchase card duties to their employees. Following
these guidelines, organizations also assign employees as approving officials to
supervise cardholders. Each cardholder should have an approving official.
Duties should be separated between cardholders and approving officials.
Assignment of Approving Officials. We identified abnormalities involving the
assignment of approving officials such as:

       •   approving officials without cardholders,

       •   cardholders without an approving official, and

       •   cardholders with more than one approving official.

These abnormal occurrences are shown in Table 3 by DoD organization.

                     Table 3. Status of Approving Officials
            (as recorded in Citibank and U.S. Bank systems as of May 31, 2001)
                                           Number of Approving Officials
    Status of Approving         Army      Navy    Air Force Other Defense      Total
          Officials                                           Organizations
   Approving Officials
   without Cardholders           2,019       373      1,234           412       4,038
   Cardholders without an
   Approving Official              422     1,146        188           126       1,882
   More Than One
   Approving Official                8        -0-         6             31          45


These abnormalities could represent data errors or outdated information in the
bank systems. Controls would have identified these occurrences for further
investigation and possible corrective action.

Separation of Duties Between Cardholders and Approving Officials.
According to OMB Circular No. A-123, key duties of processing, reviewing,
and authorizing transactions for payment should be separated among individuals.
In addition, the Circular states that managers should ensure that individuals do
not exceed or abuse assigned duties.

       Cardholder and Approving Official Responsibilities. The Treasury
Financial Manual, October 5, 2000, holds cardholders responsible for

                                      7
complying with DoD regulations and practices when making purchases.
Approving officials are responsible for ensuring buys with a purchase card are
authorized, documented, and certified for payment.

        Controls Over Reviewing and Approving Purchases. In May 2001,
DoD had 46,810 approving officials for purchase cards. These approving
officials represent the internal control to prevent inappropriate use of the
purchase cards. Approving officials provide this control by independently
reviewing and approving purchases made by the cardholders. However, this
control did not exist for 156 accounts during May 2001. Cardholders were
inappropriately performing the duties of reviewing and approving their own
purchases. Table 4 identifies the number of card accounts where cardholder and
approving official duties were not appropriately separated.

              Table 4. Number of Cardholders Allowed to Review and
                          Approve Purchases for Payment
                                  (for May 2001)1
                      Activity                   Number of Accounts
             Army                                       62
             Navy                                       37
             Air Force                                  48
             Other Defense Organizations                 9
               Total                                   156
     1
      Appendix D provides details on the specific organizations that allowed
     cardholders to make purchases and certify those purchases for payment.


        Reviews on Duty Separation at Selected Organizations. We selected
five DoD organizations where cardholders were also approving officials to
determine why duties were not separated. We determined that the duties were
not separated because neither the DoD activity managers nor the PMO had
verified that an employee was not a cardholder before appointing the employee
as an approving official.

Reviews at two of the five DoD organizations showed that inappropriate actions
had occurred. For example, at one activity:

         •    unauthorized personnel had certified purchases for 7 months,

         •    original signatures could not be verified for 2 of the 7 months,

         •    two purchases were made separately to avoid contracting rules,

         •    no documents were on file that requested purchases, and

         •    no documents were on file to support purchases made for service or
              maintenance contracts.

At the second activity, no documents were on file to support purchases of a
Christmas tree and office furniture. At the other three DoD organizations, no
inappropriate actions or purchases were found.

                                         8
    DoD auditors have issued 22 reports citing instances of insufficient separation of
    duties involving purchase cards. Further information on these reports is
    available in IG, DoD, Report No. D-2002-029, “DoD Purchase Card Program
    Audit Coverage,” December 27, 2001.

    Management Controls Needed. The PMO should conduct regular analyses to
    identify abnormal conditions such as approving officials without cardholders,
    more than one approving official for a cardholder, and the existence of
    cardholders without an approving official.

    The PMO should require agency program coordinators to research and resolve
    such abnormal occurrences. The PMO also needs to periodically identify,
    research, and correct inappropriate separations of duty to ensure cardholders are
    not allowed to be approving officials.

Spending Limits
    The Government purchase card can be used as a “stand alone” simplified
    acquisition method in accordance with the specific single purchase limits cited in
    Table 5. In addition, the card can be used as a payment method for supplies and
    services above the micro-purchase threshold by warranted contracting officers
    and nonprocurement cardholders that have been appropriately designated and
    received specialized training.

    Authority for nonprocurement cardholders to use the card above the micro-
    purchase threshold is in the Federal Acquisition Regulation 13.301,
    “Government-wide Commercial Purchase Card.” This section authorizes use of
    the purchase card as a means of placing a task order or delivery order against a
    contract, basic ordering agreement, or blanket purchase agreement. Thus,
    appropriately designated cardholders may use the card to place orders for
    supplies and services covered by Indefinite Delivery Indefinite Quantity
    contracts, Federal Supply Schedule contracts, blanket purchase agreements, and
    other ordering instruments.

              Table 5. Limits for Specific Categories of Purchases1
               Categories of Purchases           Limit of Purchase
       Supplies or services                                  $ 2,500
       Construction                                            2,000
       Training requests                                      25,000
       Medical services                                        2,500
       Nonappropriated funds                                   2,500
       Military interdepartmental purchases                    2,500
       Overseas purchases                                     25,000
       1
         The FY 2002 Defense Authorization Act, which expires September 30, 2003, raised
       the limit to $15,000 per transaction for purchases relating to biological or chemical
       terrorism, and other terrorist acts (76 Federal Contracts Report 624).



    According to the PMO, each cardholder has a single purchase dollar limit as
    well as a monthly purchase dollar limit. The agency program coordinator along

                                                 9
           with the approving official and resource manager determine the appropriate
           spending limit authorization controls. These authorization controls are imposed
           to control spending and to support a system of funds controls in accordance with
           available funding.

           Micro-Purchase Threshold. DoD organizations issued purchase cards with
           limits exceeding $2,500 for a single micro-purchase. Table 6 shows that for the
           months of February and May 2001,3 DoD cardholders made 31,018 (14,389
           plus 16,629) transactions, valued at $311.9 million, that exceeded the
           micro-purchase threshold.

                      Table 6. Transactions Over the Micro-Purchases Threshold
                                  (during February and May 2001)
            Organizations         Number of           Amount of         Number of          Amount of
                                Transactions in      Transactions      Transactions       Transactions
                                February 2001                          in May 2001
                                 over $2,500                            over $2,500

             Army                         4,767       $61,496,513              5,462        $60,312,011
             Navy                         4,300        43,123,109              4,848         48,309,526
             Air Force                    3,660        25,861,464              4,383         31,248,021
             Other Defense                1,662        19,772,481              1,936         21,835,509
             Organizations
                 Total                   14,389      $150,253,567             16,629       $161,705,067

           The micro-purchase threshold was exceeded by amounts ranging from $.70 to
           $206,326 during May 2001. Although the cardholders that exceeded the
           micro-purchase threshold may have used the card appropriately in each of these
           transactions as a payment method, we were not able to validate this premise
           from the available data. The PMO advised that there was no way to segregate
           bank reported purchase card transactions and associated dollars data to indicate
           whether the card was used as a method of acquisition or as a method of
           payment. The data show the need for increased controls by approving officials
           for reviewing and certifying transactions for payment.
           Comparison of Spending Limits to Available Funds. Table 7 shows the
           amount cardholders and approving officials were authorized to spend in a given
           billing cycle as indicated in information provided by the banks. For cardholder
           accounts, this amount defines the maximum amount that may be charged in one
           monthly billing cycle. For approving officials, this amount is a multiple of
           three of the cycle dollar limit.




3
    Purchase card data was obtained for the months of February and May 2001 unless otherwise noted in
    this report.

                                                    10
               Table 7. Cardholder and Approving Official
                        Monthly Spending Limits
                         (in billions of dollars)
             DoD           Cardholders’         Approving Officials’
         Organization         Limits                  Limits
         Army                        $3.0                      $7.5
         Navy                          1.5                     35.4
         Air Force                     1.8                      4.5
         Other Defense                  .8                      1.6
         Organizations
            Total                    $7.1                     $49.0

The FY 2002 DoD Appropriations Act provided DoD with $332.6 billion.
Approving officials had annualized spending limits of $196.4 billion
($49.0 billion divided by 3 multiplied by 12), or 59 percent of the DoD budget.

During May 2001, 6,533 cardholder accounts had monthly limits exceeding
$100,000 and 40 of those accounts had a limit of $9,999,999. Cardholders
could spend up to $9,999,999 for a single purchase or per month if no
approving official limit was entered into the bank system.

High spending limits created the potential for inappropriate purchases and could
lead to potential violations of the Antideficiency Act if spending exceeded
budgeted funds. For example, a U.S. Bank report showed that cardholders of
the Air Force 1st Fighter Wing had a yearly spending limit of $6.6 billion.
However, the 1st Fighter Wing had an annual budget of only $130 million.
Therefore, the cardholder spending limit was potentially 50 times greater than
the budget of available funds for the entire Wing. The PMO and U.S. Bank
contend that the report was inaccurate; however, neither organization was able
to document this assertion or demonstrate that corrective actions were completed
to adjust the credit limits.

Accuracy of Limits Recorded in Bank Systems. Reports generated by the
U.S. Bank computer system were not accurate in that they failed to show actual
amounts established in the system by DoD personnel.

       Establishing Purchase Card Accounts. Within the purchase card
program, the agency program coordinator was responsible for establishing new
purchase card accounts in the bank systems. When establishing an account, the
agency program coordinator was responsible for establishing controls over
spending by entering a limit on the amount to be spent for a single
micro-purchase and over the period of a month. In addition, the agency
program coordinator was responsible for maintaining these spending controls by
changing the single micro-purchase and monthly limits in the bank system when
needed.

        Changing Purchase Card Accounts. At the U.S. Bank, changes made
to single micro-purchase and monthly spending limits did not properly update
the bank’s system. For example, the Air Force 1st Fighter Wing personnel
entered changes into the bank system for 20 accounts. The changes should have
restricted the total monthly spending limit for the 20 accounts to $427,100.
                                   11
    However, the changes did not appropriately update in the system. In addition,
    the bank system showed that 512 card accounts in the 1st Fighter Wing had no
    limit on single micro-purchases.

    The 1st Fighter Wing’s headquarters, the Air Combat Command, and bank
    personnel stated that the problem was identified during testing of the U.S. Bank
    system in December 2000. However, the PMO and users of the bank system
    were not aware of the problem as of June 2001. Furthermore, as of November
    2001, the problem was still uncorrected.

    Management Controls Needed. To improve controls over spending limits, the
    Director, Defense Procurement, should develop written guidance for issuing
    purchase cards that includes a methodology for use by agency program
    coordinators in establishing spending limits for cardholders and approving
    officials. In addition, proper oversight by the PMO must be in place to ensure
    cardholders are adhering to the limits. Proper oversight by the PMO should
    include requiring agency program coordinators to:

           •   perform periodic reviews on the amount of purchases made by
               cardholders,

           •   adjust the purchase limit to the minimum amount justified by use,
               and

           •   ensure purchase limits are established.

    In addition, the PMO should follow up to ensure that appropriate reviews are
    made by the agency program coordinators and that purchase limits recorded by
    U.S. Bank and Citibank are those requested by DoD. Commercial credit card
    companies reduce the risk of bad debts by setting a dollar limit on purchases
    allowed by customers. Accordingly, the PMO must ensure that limits are in
    place and that DoD employees are limited to the minimum amount of purchases
    based on funds available and the justifiable needs of an activity.

Blocked Businesses
    The GSA contract instructs Citibank and the U.S. Bank to prevent inappropriate
    use of purchase cards by blocking purchases from some businesses. However,
    purchase cards were sometimes used to process inappropriate transactions.

    Use of Cards at Blocked Businesses. The PMO provided information on its
    Internet website that prohibited cardholders from making purchases from
    businesses such as jewelry stores, pawn shops, and dating or escort services.
    The banks were supposed to block transactions from these businesses.

    However, the banks processed more than $4 million in transactions from
    businesses supposedly blocked. Table 8 shows the transactions not blocked by
    banks between October 1999 and May 2001.




                                       12
                   Table 8. Transactions Not Blocked by Banks
                      (between October 1999 and May 2001)
                  Businesses Coded as              Number of    Amount of
                                                  Transactions Transactions
      Jewelry Stores                                        3,034      $1,630,052
      Direct Marketing Insurance                            1,636       1,390,188
      Pawn Shops                                              634         291,282
      Antique Shops                                           550         254,578
      Financial Institutions – Manual Cash Advance             68         320,766
      Dating and Escort Services                               61           5,528
      Antique Reproductions                                    53          33,809
      Security Brokers or Dealers                              52          32,974
      Timeshares                                               47          34,070
      Court Costs, Alimony, and Child Support                  36           7,203
      Bail and Bond Payments                                    4          12,673
      Political Organizations                                   3             900
      Fines                                                     3           1,482
      Wire Transfer—Money Orders                                2             644
      Betting, Casino Chips, and Off-Track Betting              2           2,508
              Total Number and Amount of Transactions       6,185      $4,018,657

            Verifying the Appropriateness of Selected Transactions. We selected
    229 questionable transactions made between October 1999 and July 2001 to
    determine whether the transactions were made for valid purposes. By
    contacting vendors and conducting internet searches, we determined that 157 of
    the 229 transactions were appropriate; however, the business’ bank had
    miscoded the business. For example, 65 of the transactions were coded as 7273
    (Dating and Escort Services); however, the majority of these transactions were
    to various computer companies, which should have been coded as 7372
    (Computer Programming, Integrated Systems Design, and Data Processing
    Services).

    A more detailed review of 95 of the 229 transactions through on-site auditor
    verification of cardholder billing statements and supporting documentation, to
    include cardholder interviews, was also conducted. This review showed that 94
    of the 95 transactions were made for appropriate purposes, although the code
    numbers used by the bank were incorrect for 79 of the 95 transactions. The one
    inappropriate transaction was referred to the Defense Criminal Investigative
    Service for further investigation.

    Management Controls Needed. The Director, Defense Procurement, needs to
    publish a list of the specific types of businesses blocked from use by
    cardholders. Also, the Director needs to request that GSA modify the purchase
    card contract to require banks to block purchases from businesses considered
    inappropriate by DoD organizations participating in the purchase card program.

Purchases Declined by Banks
    The banks appropriately denied some attempted purchases. According to bank
    records, these attempted purchases were declined because cardholders did not

                                        13
  have enough available credit, the bank system was not operating, the account
  was temporarily closed, or the account needed to be activated.

  Cardholders made 954,002 purchases amounting to more than $488.2 million
  during February 2001. However, 11,480 cardholder accounts were declined
  44,893 purchases. Cardholders attempting to make purchases despite repeated
  denials could suggest attempts to use the cards inappropriately. Although over
  90 percent of the cardholder accounts with declined purchases had fewer than
  10 attempts to process purchases during February 2001, as shown in Table 9,
  some cardholders had a significant number of purchases declined. One
  cardholder with the U.S. Army Contracting Command in Korea had a total of
  78 declined purchases. This cardholder attempted purchases at home furnishing
  stores, equipment rental stores, fuel dealers, and drapery and upholstery stores.

        Table 9. Number of Card Accounts with Declined Purchases
                         (as of February 2001)
          Organizations       10 or Fewer    11 or More      Total Number of
                               Purchase       Purchase      Card Accounts with
                               Attempts       Attempts      Declined Purchases
                               Declined       Declined
       Army                        4,413            235                4,648
       Navy                        1,936            250                2,186
       Air Force                   3,746            150                3,896
       DoD Organizations             698             52                  750
          Total                   10,793            687               11,480


  Management Controls Needed. The PMO needs to direct agency program
  coordinators to identify and investigate accounts when cardholders are
  attempting to make purchases after repeated declines by the banks.

Purchases Made After Card Accounts Were Closed
  Purchases were processed for some card accounts after the accounts were
  closed. According to the banks, the accounts had been closed, but not
  terminated. Because the accounts were only closed, the banks allowed the
  accounts to be reopened for processing purchases. Many transactions were for
  America OnLine internet accounts. Table 10 details the number of transactions
  processed on closed accounts.




                                      14
                      Table 10. Transactions on Closed Accounts
                                     (May 2001)
              Organizations     Number of      Number of    Dollar Value
                                Cardholder    Transactions
                                 Accounts
              Army                  147              251       $171,734
              Navy                    82             115         42,758
              Air Force             128              210        184,785
              Other Defense           33               48        40,443
              Organizations
                Total               390              624       $439,720

           Although the number of purchases processed through closed accounts was small,
           some purchase card agency program coordinators believed that no transactions
           could be processed through these accounts once closed. Because some
           approving officials and agency program coordinators were not aware that the
           banks would process transactions through these closed accounts, the risk
           increased for undetected fraudulent transactions.

           Controls were not always in place and working to detect fraudulent transactions.
           For example, the Army Materiel Command cardholders were only required to
           sign a list as proof that an old purchase card was returned. The activity did not
           attempt to determine whether the card account had unrecorded purchases,
           unreceived purchases, or automatically recurring purchases (such as
           subscriptions). Therefore, purchases could be processed on closed accounts
           without detection by the purchase card approving officials and agency program
           coordinators.

           Management Controls Needed. The PMO needs to coordinate with the banks
           and modify the purchase card contract to include procedures that prevent card
           accounts from being reopened after closure.

Convenience Checks
           According to the DoD Financial Management Regulation, the desired method
           for making all payments within the United States is transferring funds
           electronically. When electronic transfers of funds are not practical, the
           Financial Management Regulation permits the use of purchase cards. If a
           business refuses to accept the purchase card or if use of the card is impractical,
           DoD may use a convenience check.4
           Within the purchase card program, the GSA contract requires the U.S. Bank
           and Citibank to accommodate DoD organizations with convenience checks.
           Convenience checks provide an alternative for DoD to make minor purchases
           when cash, purchase cards, and other alternatives are not usable. Convenience
           checks should not exceed $2,500 ($10,000 in support of a contingency if

4
    Convenience checks are a contractor-provided product and service that allows checks to be written on a
    card account within established dollar limits.

                                                     15
           overseas). Use of convenience checks was not properly monitored to ensure
           that:

                   •    checks did not exceed $2,500,

                   •    checks were not used to make purchases when the purchase card
                        could have been used, and

                   •    checks were not used to buy unauthorized items.

                  Use of Convenience Checks. Convenience checks amounting to more
           than $1.9 million were written for amounts greater than the authorized $2,500.
           Although approving officials were responsible for certifying payments of bills,
           almost 250 convenience checks were written in excess of $2,500 by DoD
           organizations,5 as shown in Table 11.

                             Table 11. Convenience Checks Written
                                 for Amounts Exceeding $2,500
                           (between October 1999 and May 31, 2001)
                                                      Number of     Value of
                                     Total Number of Checks Over Checks Over
                  Organizations      Checks Written    $2,500        $2,500
                 Army                         6,478           35   $ 209,834
                 Navy                         2,241         135     1,225,513
                 Air Force                    2,352           60      337,148
                 Other Defense
                 Organizations                  932           18      128,036
                 Unknown                          5          -0-           -0-
                   Totals                    12,008         248    $1,900,531

           Although the percentage of checks written for amounts greater than $2,500 was
           not significant when compared with the total number of checks written, the DoD
           Financial Management Regulation prohibits writing checks for more than
           $2,500.

                   Reviews on Convenience Checks. The PMO conducted quarterly
           reviews on convenience checks issued for amounts greater than $2,500 and sent
           the results semiannually to each of the Services and other Defense organizations.
           Also, the PMO required all organizations to conduct an audit and to cancel
           checking accounts that violated the DoD Financial Management Regulation
           limitation of $2,500 per check.

           The PMO reviewed convenience checks issued from July 1, 2000, through
           December 31, 2000. The review identified 38 convenience checks issued for
           more than $2,500. The PMO determined the primary reasons for checks issued
           for more than $2,500 as:

                   •    approving officials did not properly oversee check writing,
5
    A total of $27,389,557 of convenience checks were written between October 1999 and May 31, 2001.

                                                   16
                    •   check writers avoided the splitting of a purchase (splitting of
                        purchases is prohibited by the Federal Acquisition Regulation), and

                    •   check writers were not familiar with guidance for using the checks.

           The PMO performed its initial review of convenience checks for the period of
           January 1, 2000, through June 30, 2000. The initial review determined that the
           Army, Navy, and Air Force had issued 80 convenience checks for more than
           $2,500 totaling $464,683. Similar to the most recent review—July 1, 2000,
           through December 31, 2000—the organizations contended that most of the
           checks were issued for more than $2,500 because check writers and approving
           officials were not aware of the guidance relating to convenience checks. As of
           November 21, 2001, the PMO had received results of the reviews from all
           organizations except the Defense Intelligence Agency.

                  Use of Convenience Checks at Businesses That Accept the Purchase
           Card. Convenience checks were inappropriately used at businesses that
           accepted the purchase card. According to the DoD Financial Management
           Regulation, convenience checks are an alternative to cash for paying official
           expenses of DoD organizations that previously used imprest funds.6
           Convenience checks should be used only after purchase cards are determined to
           be unusable. In addition, cardholders can use purchase cards to pay for training
           costs up to $25,000; therefore, convenience checks should not be used for this
           purpose unless purchase cards are unusable in which case convenience checks
           can be used to pay for training costs up to $2,500.

           Table 12 identifies 409 convenience checks that were written to businesses that
           accepted purchase cards. For example, convenience checks were
           inappropriately used to make purchases at businesses such as the U.S. Postal
           Service, Federal Express, and the United Parcel Service.

           In addition, 484 checks were written to purchase training. These purchases
           represent potential opportunities for misuse of the card. The PMO needs to
           periodically research checks written for training to ensure that purchase cards
           were determined unusable.




6
    Imprest funds were authorized to make small purchases (not exceeding $500) of supplies or services on
     an “imprest basis.” An “imprest basis” means that the amount of the fund was to remain constant.

                                                     17
                  Table 12. Convenience Checks Written to Businesses
                             That Accept Purchase Cards
                           (October 1999 through May 2001)

           Payee of Checks      Checks Written for more than $2,500   Number of Checks
          Business                              18                         409
          Training                              46                         484
                 Total                          64                         893


    Further, 28 convenience checks written for more than $2,500 were written to
    individuals. For example, at one DoD organization, checks were written to
    individuals for services at a chapel. During April and May 2001, checks for
    $1,300, $840, and $220 were written to a priest, a music director, and an
    organist, respectively. While these checks could represent valid payments,
    checks could be fraudulently written to relatives, friends, or other individuals.

    Management Controls Needed. PMO needs to continue to review purchase
    card data at least semiannually to identify convenience checks written in
    amounts greater than $2,500 or for inappropriate purposes. In addition, the
    PMO should take the following actions:

           •   reemphasize DoD guidance concerning what payments can and
               cannot be made using convenience checks,

           •   require agency program coordinators to research convenience check
               transactions and to take appropriate actions to correct improper uses
               of the checks,

           •   request the GSA to amend the purchase card contract to state that
               convenience checks not written in accordance with the DoD Financial
               Management Regulation will not be honored,

           •   identify convenience checks written to individuals and require agency
               program coordinators to research the transactions, and

           •   follow up with agency program coordinators to ensure appropriate
               corrective actions are performed.

Purchase Card Program Policies, Procedures, and Oversight
    Internal controls were neither sufficient nor effective because policies and
    procedures for the program were nonexistent, incomplete, or not followed; and
    program management and oversight did not ensure that standardized training
    was provided or that annual oversight reviews were conducted.

    Development and Use of Policies and Procedures. OMB Circular No. A-123
    states that controls such as policies and procedures help managers achieve
    results and safeguard the integrity of programs. The PMO had delegated the

                                         18
    development of many policies and procedures for the program to the DoD
    organizations. As a result, policies and procedures either did not exist, were
    incomplete, or were not followed.

    Program Management and Oversight. Management and oversight of the
    purchase card program needed improvement. The Treasury Financial Manual
    requires DoD to develop internal procedures for using the purchase card. The
    Manual stipulates that those procedures should include internal controls such as
    training program participants and conducting annual program oversight review.

            Training Program Participants. No DoD guidance lists the specific
    training that an employee should receive prior to obtaining a purchase card.
    According to DoD Directive 7000.15, “DoD Accountable Officials and
    Certifying Officers,” July 8, 1998, DoD organizations are required to provide
    training to new cardholders, approving officials, and agency program
    coordinators. This training includes initial training to new cardholders and
    periodic refresher training to current cardholders.
    The PMO stated that the agency program coordinators were responsible for
    ensuring that the cardholders and approving officials received the proper
    training. However, the PMO did not review the agency program coordinators’
    records to ensure that training was provided.

            Program Oversight Reviews. Annual oversight reviews were not
    performed consistently. During the audit, we visited six locations. Two
    locations, the Air Force 1st Fighter Wing and the Army Materiel Command,
    conducted internal reviews. However, the other four locations did not.

    Management Controls Needed. The USD(AT&L) needs to coordinate with the
    USD(C) to review DoD policies and procedures that address internal control
    weaknesses identified in this report. Also, the USD(AT&L) should develop
    guidelines for DoD organizations to use for issuing and using purchase cards,
    and processing card purchases and convenience checks.

    In addition, the USD(AT&L) should develop standardized training and add a
    requirement in the DoD Financial Management Regulation that the training be
    completed by cardholders, approving officials, and agency program
    coordinators. Further, the PMO should require all DoD organizations to submit
    reports on the results of oversight reviews and provide guidance to effect
    corrective actions as needed.

Actions Taken by Management During the Audit
    During this audit, the PMO and the Director, Defense Procurement, took
    actions to strengthen controls over the purchase card program. For example,
    the PMO issued guidance on July 5, 2001, to strengthen controls over the
    supervision of cardholders. The memorandum, “Internal and Management
    Controls – DoD Purchase Card Program,” states that commanders and directors
    need to limit the number of cardholders supervised by an approving official to
    seven cardholders.



                                        19
           In addition, the Director, Defense Procurement issued a memorandum on
           August 13, 2001, requesting the Military Departments and Defense agencies to:

                   •   review cardholder bills to verify cardholder authorizations to buy
                       items on the bills, verify receipt of items, and record appropriate
                       items on property records;

                   •   ensure cardholders had a continuing need to have a purchase card;

                   •   restrict purchase limits to a reasonable amount based on need;

                   •   limit the number of cardholders per approving official; and

                   •   perform spot checks on internal controls, to include using audit
                       organizations and inspectors general to assist.

           The Director, Defense Procurement, requested assistance from the IG, DoD, on
           August 14, 2001. Specifically, the Director requested assistance obtaining audit
           results on the purchase card program to assist with managing the program,
           tracking fraud, and identifying trends of misuse.

           Also, the PMO and the Director, Defense Procurement, agreed at a meeting
           with IG, DoD, representatives on October 3, 2001, to take actions to correct
           weaknesses identified in controls over restricting purchases from inappropriate
           businesses, to include:

                   •   advising Citibank and U.S. Bank on the types of businesses blocked
                       from use and requesting verification from the banks that the codes
                       were blocked;

                   •   requesting DFAS to expand its participation in Operation Mongoose7
                       to include data mining of purchase card data using the results of work
                       performed by the IG, DoD, and the Air Force Audit Agency; and

                   •   distributing letters to all cardholders and approving officials
                       providing the codes of businesses blocked from use.
           Finally, the PMO issued a memorandum on October 5, 2001, “Blocking of
           Merchant Category Codes,” to strengthen controls over the types of businesses
           used by cardholders. The memorandum advises cardholders of the need to
           adhere to DoD policy that restricts purchases from certain businesses.

           In addition, the memorandum authorizes agency program coordinators to restrict
           cardholder purchases from additional inappropriate businesses. The
           memorandum alerted cardholders that the Operation Mongoose Program would
           be expanded to detect both authorized purchases made at inappropriate types of
           businesses, and declined purchases.

7
    The Operation Mongoose Program was started to identify erroneous, duplicate, or fraudulent payments
    and to detect and correct internal control weaknesses. The program includes personnel from the
    Defense Finance and Accounting Service; the Defense Manpower Data Center; and the Inspector
    General, DoD.

                                                    20
    On March 12, 2002, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Under Secretary of Defense (Comptroller)
    issued a joint memorandum that emphasized the need for all DoD organizations
    to maintain adequate internal review programs. The memorandum also
    emphasized that managers at all levels are responsible for investigating alleged
    cases of purchase card fraud or abuse, and taking appropriate corrective and
    disciplinary action.

Conclusion
    Although numerous audit reports issued over the last 7 years have identified a
    wide range of implementation problems in the DoD purchase card program, the
    program remains an important part of the DoD acquisition streamlining effort.
    This report identifies specific risk factors that still existed in FY 2001 that
    required more proactive oversight. Actions were taken during the audit by the
    senior DoD managers and the Director, DoD Purchase Card Joint Program
    Management Office to strengthen controls over the program, to include those
    pertaining to the supervision of cardholders, and to restricting purchases from
    potentially inappropriate businesses. The IG, DoD, as well as other elements of
    the DoD audit and investigative oversight community, will continue to work
    closely with those managers to improve the program and take action against
    individuals who misuse credit card privileges.

Management Comments on the Finding and Audit Response
    The Director, Defense Procurement, Office of the Under Secretary of Defense
    for Acquisition, Technology and Logistics generally concurred with the audit
    findings and the intent of all the recommendations. For clarification purposes, a
    discussion on the application of spending limits as an authorization control and
    the inconsistency between the bank’s reporting system and their authorization
    controls was provided.

    Management Comments on Spending Limits. The Director stated that the
    findings in the report on spending limits may not be accurate in all cases. The
    findings may have misrepresented actual limits because the auditor did not
    review cardholder and billing account limits together and, the report provided
    by the bank showing spending limits was inaccurate.

    Audit Response. The audit team reviewed data provided by the bank on
    cardholder and billing account limits together and identified discrepancies
    between those data and the limits requested by program coordinators. These
    discrepancies were brought to the attention of the Program Management Office
    and the bank. Although the Program Management Office states that the bank
    subsequently corrected the problem, the documentation requested by the audit
    team to support that assertion has not been received. Effective implementation
    of corrective action in response to recommendation 9 should address this
    problem.




                                       21
Recommendations, Management Comments and Audit
Response
    We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

    1. Coordinate with the Under Secretary of Defense (Comptroller) and
    review DoD policies and procedures to address internal control weaknesses
    identified in this report. Develop written guidelines for DoD organizations
    to use for issuing and using purchase cards, and the processing of purchases
    and convenience checks.

    Management Comments. The Director, Defense Procurement concurred and
    stated that in addition to actions taken during the course of the audit, the
    Program Management Office is in the process of advising the Defense
    Components to close purchase cards that are no longer needed and to place
    controls over valid cards that are infrequently used to protect the government
    from potential cardholder or outside fraudulent use. The Program Management
    Office memorandum will be issued no later than April 5, 2002.

    2. Develop standardized training for the purchase card program.
    Coordinate with the Under Secretary of Defense (Comptroller) on updating
    the DoD Financial Management Regulation with the requirement for
    purchase card training.

    Management Comments. The Director, Defense Procurement concurred and
    stated that the Program Management Office is completing efforts on an
    interactive purchase card training module for the DoD to be on-line by mid July
    2002. In addition, as a part of a Comptroller lead review of the Travel Card
    and Purchase Card Programs in March 2002, both regulatory guidance and
    training adequacy are being assessed. Final recommendations are forthcoming
    and are expected to further address this recommendation.

    We recommend that the Director, Defense Procurement:

    3. Distribute guidance for issuing purchase cards that includes a
    methodology for use by agency program coordinators in establishing
    spending limits for cardholders and approving officials. Require single
    purchase limits for all cardholders.

    Management Comments. The Director, Defense Procurement concurred and
    stated that a memorandum dated August 13, 2001 advised the Defense
    Components to set cardholder spending limits and/or billing account spending
    limits based on cardholder projected needs and available funds.

    Audit response. The August 13, 2001 guidance suggested components perform
    frequent spot checks of the recommended internal controls. The occurrence of
    these verification measures should be made mandatory, if the controls are to be
    effective. The Comptroller lead review discussed under recommendation 2 is
    expected to address this matter.


                                       22
4. Request the General Services Administration to modify the purchase
card contract to require the banks to block purchases from businesses
considered inappropriate by DoD organizations.

Management Comments. The Director, Defense Procurement concurred with
the intent of the recommendation and stated that the purchase card contract
requires the banks to establish specific authorization controls as requested by the
agency program coordinator. On October 5, 2001, the Director, Purchase Card
Joint Program Office, directed the banks to initiate authorization controls that
would decline all purchase card authorizations at merchants identified within a
group of twenty specific category codes considered inappropriate. Defense
component program coordinators were advised to further restrict card use at
certain merchant types as appropriate.

We recommend that the Director, Purchase Card Joint Program
Management Office:
5. Direct agency program coordinators to review card use and cancel
unused cards or perform other actions that would protect the Government
from fraudulent or improper use.

Management Comment. The Director, Defense Procurement concurred and
stated that the Program Management Office is in the process of advising the
Defense Components to close purchase cards that are no longer needed and to
place controls over valid cards that are infrequently used to protect the
government from potential cardholder or outside fraudulent use. The Program
Management Office memorandum will be issued no later than April 5, 2002.

6. Analyze purchase card data for abnormal occurrences by periodically
reviewing the number of cardholders assigned to an approving official.
Require agency program coordinators to research and resolve the following
abnormal occurrences:

   a. approving officials without cardholders, and

   b. cardholders without an approving official.
Management Comments. The Program Management Office concurred and
stated that DOD billing accounts with more than 7 cardholders were identified
and provided to the defense components for corrective action. The Program
Management Office will perform this analysis on a semi-annual basis. In
addition, the Program Management Office corrective action identified in
recommendation 1 will include direction for the coordinators, on a semi-annual
basis, to identify and cancel billing accounts that have no cardholders or
cardholder accounts not attached to the billing accounts. This direction will be
issued no later than April 5, 2002.

7. Identify, research, and correct inappropriate separations of duties when
cardholders are allowed to be approving officials.

Management Comments. The Program Management Office concurred and
stated that cases where cardholders are their own billing official were provided
to the defense component program coordinators to immediately close the card

                                    23
accounts. The Program Management Office will perform another review in
May 2002 to ensure all of these situations do not exist, and will include this
occurrence in the semi-annual analysis identified in recommendation 6.

8. Review spending limits and require agency program coordinators to
perform periodic reviews on the amount of purchases made by cardholders
and to adjust purchase limits to the minimum amount justified by use.

Management Comments. The Program Management Office concurred and
stated that many program coordinators use “default” limits that do not
accurately reflect their needs or available funding. The Director, Defense
Procurement memo dated August 13, 2001, directs program officials to set
reasonable single purchase and monthly spending limits based on what the
person needs to buy as part of his/her job. Spending limits can be established
on cards by either using the cardholder spending limits or the billing account
limit.
Audit Response. The August 13, 2001 guidance suggested components
perform frequent spot checks of the recommended internal controls. The
occurrence of these verification measures must be made mandatory, if the
controls are to be effective. The Comptroller lead review discussed under
recommendation 2 is expected to address this matter.

9. Require agency program coordinators to reconcile spending limits in the
U.S. Bank and Citibank computer systems with DoD requested limits and
resolve discrepancies quarterly.

Management Comments. The Program Management Office concurred and
stated that the coordinators will be directed to review spending limits in the bank
authorization system to ensure they are accurate. This direction will be issued
no later than April 5, 2002. This review may be conducted as part of the
review of cardholder/billing accounts.

Audit Response. In addition to the review, discrepancies must be resolved.
The occurrence of these measures must be made mandatory, if the guidance is to
be effective. The Comptroller lead review discussed under recommendation 2 is
expected to address this matter.

10. Identify and investigate accounts when cardholders attempt to make
purchases after banks repeatedly declined to process purchases.

Management Comments. The Program Management Office concurred and
stated that it is in the process of advising the program coordinators to review
cardholders with large numbers of declines to determine if they are attempting
to circumvent internal controls. The Program Management Office memorandum
will be issued no later than April 5, 2002.

11. Coordinate with the banks and modify the purchase card contract to
include procedures that prevent card accounts from being reopened after
notification of closure by the agency program coordinator. Procedures
developed should address treatment of possibly legitimate charges which
may be posted after closing of the account.


                                    24
Management Comments. The Program Management Office non-concurred
and stated that card accounts are not “reopened” to accept trailing transactions.
The purchase card program makes use of standard commercial credit card
platforms, processes and business rules. Transactions can post to cardholder
accounts as long as six months after the cardholder makes a purchase. This is
due to the card association requirement that vendors cannot charge the card until
shipment. If card accounts change, it is unfair to the merchant to refuse these
otherwise legitimate charges due to our failure to properly notify the vendor of a
card change. If the charges are not valid, the DoD has disputes rights and will
not incur liability if procedures are properly followed. For merchants who
continually charge a closed account after being notified of the new account
number, the program coordinator can direct the card-issuing bank to “charge-
back” these transaction to the merchant. The charge-back results in a fee to the
merchant similar to a returned check charge. The number of invalid charges
occurring after account closure has been found to be minimal.

Audit Response. Information received during the course of the audit from both
the Program Management Office and the US Bank indicate that purchase card
accounts can be “soft closed” instead of terminated. Being “soft closed” allows
the account to be reopened. In one case an account had been closed for over a
year when a merchant processed a charge against the “closed” account. The
vendor had charged the account in error. If the government is going to use bank
practices, it is customary for vendors to call in credit card requests to get an
authorization number prior to making a charge. We believe it is unfair to have
to pick up the tab for charges against closed accounts. Charges are not allowed
to individual credit card accounts once closed; the merchant gets a decline from
the credit card company. The Director, Defense Procurement should reconsider
its position on Recommendation 11 and provide additional comments in
response to the final report.

12. Review purchase card data to identify convenience checks written in
amounts greater than $2,500 or for inappropriate purposes. Take the
following actions:

      a. Reemphasize DoD guidance concerning what payments can and
cannot be made using convenience checks.
        b. Require agency program coordinators to research convenience
check transactions and to take appropriate actions to correct improper uses
of the checks.

      c. Request that the General Services Administration amend the
purchase card contract to state that convenience checks not written in
accordance with the DoD Financial Management Regulation will not be
honored.

Management Comments. The Program Management Office concurred in part
and stated that guidance will be issued to the Components reminding these
organizations that their program reviews (both agency program coordinator and
heads of contracting) shall include an examination of convenience check
transactions to ensure that program officials are complying with governing
financial management and acquisition regulations. In addition, the Program
Management Office will continue periodic screening of convenience check

                                    25
transactions to identify those activities that are writing checks in excess of the
$2,500 threshold. The Program Management Office will cancel check accounts
for activities with repeated violations.

The purchase card program makes use of standard commercial convenience
check platforms, processes and business rules. The commercial platform does
not have a system of authorizations that could limit the writing of the check at
the merchant location. Additionally, the Financial Management Regulation
allows checks to be written up to $10,000 in support of a contingency.
Identification of appropriateness of the check cannot be accomplished in time to
void payment therefore, the most efficient and economical procedures to use
would be the post review/justification which is currently in place.

Audit Response. The DoD Financial Management regulation states that
convenience checks are not to be written over $2,500 unless it is a payment in
an overseas transaction in support of a contingency, then it can be written up to
$10,000. However, according to bank representatives, a foreign draft would be
used, not a convenience check. Standard commercial convenience check
platforms allow for convenience checks to be returned for insufficient funds,
especially since the checks state that they are not valid for over $2,500.
Implementing the recommendation would allow the banks to return the checks
and avoid potentially fraudulent checks. The Director, Defense Procurement
should reconsider its position on Recommendation 12.c. and provide additional
comments in response to the final report.

13. Identify convenience checks written to individuals and require agency
program coordinators to research the transactions. Follow up with agency
program coordinators to ensure appropriate corrective actions are
performed.

Management Comments. The Program Management Office concurred and
stated that program reviews will include a “spot check” examination of
convenience checks written to individuals to ensure that these transactions are
legal, proper, and correct. While it may be entirely appropriate to write a
convenience check to an individual such as a chapel organist or guest speaker
who does not accept the purchase card, controls should be in place to ensure
appropriateness of the checks.

14. Require all DoD organizations to provide reports on the results of
oversight reviews and provide guidance to effect corrective actions as
needed.

Management Comments. The Program Management Office concurred and
stated that the Defense Components are required to conduct installation/base
level reviews at least annually. Depending upon the Component, the results of
these reviews are reported to either the installation/base commander or the local
head of contracting. In turn, components are to report material control
weaknesses thorough command channels to DoD. In addition, in separate
memoranda dated August 13, and 14, 2001, respectively, the Director of
Defense Procurement requested audit community assistance in this area. The
memorandum includes a request that Military Departments and Defense
agencies perform spot checks on internal controls, to include using audit
organizations and the inspectors general to assist. The August 14 memorandum

                                    26
requested assistance from the IG, DoD, organization in obtaining audit results
on the purchase card program to assist with managing the program, tracking
fraud and identifying trends of misuse. We believe that the reviews (and
associated audit plans) conducted by the Component audit organizations and the
IG, DoD, should also include an examination of the integrity, the quality and
the completeness of the installation/base level reviews. The Program
Management Office would then make use of the resulting audit reports and
recommendations to determine if existing policy and/or internal control
measures should be amended or strengthened.

Audit Response. The audit and investigative community has agreed to work
with the Director, Defense Procurement and the Comptroller lead taskforce to
identify corrective actions to improve the credit card program. This effort is not
intended to be a replacement for oversight by the departmental management,
however. Currently the results of the oversight reviews are rarely reported up
the chain-of-command and senior DoD managers lack visibility over actual
operations of the purchase card program. The Air Force and Defense Logistics
Agency were the only DoD components that had reported purchase cards as a
material weakness, despite the efforts of the audit and investigative community
to bring instances of internal control violations to command attention throughout
the DoD.




                                    27
Appendix A. Audit Process

Scope
    Work Performed. We examined the controls for issuing and using 231,856
    DoD purchase cards in FY 2001. In addition, we reviewed 12,008 convenience
    checks written between October 1999 and May 2001. We selectively reviewed
    the controls over the processing of more than 10.6 million purchases, by card or
    check, amounting to $6.1 billion in FY 2001.

    Selection of Purchase Card Data. We selected and reviewed automated
    purchase card data provided for the months of February and May 2001 by the
    U.S. Bank and Citibank. The two banks processed 954,002 transactions
    amounting to $488.3 million during February 2001, and 994,919 transactions
    totaling $528,981,656 during May 2001. In addition, we reviewed 12,008
    convenience checks written between October 1999 and May 2001, totaling
    $27,389,557. Using these data, we evaluated controls over issuing and using
    purchase cards as well as the processing of purchases.

    Reviews at Organizations. We interviewed personnel in the Army Materiel
    Command; Naval Sea Systems Command; Air Combat Command;
    Headquarters, Marine Corps; the Defense Contracting Command-Washington;
    and the Air Force 1st Fighter Wing to evaluate controls over issuing and using
    cards. In addition, we interviewed personnel at the Purchase Card Joint
    Program Management Office.

    We also interviewed personnel at Fort Bragg, North Carolina; Fort Campbell,
    Kentucky; Fort Sam Houston, Texas; Air Force Academy in Colorado Springs,
    Colorado; Robbins Air Force Base, Georgia; Lackland Air Force Base,
    San Antonio, Texas; Bolling Air Force Base, Washington, D.C.; Aberdeen
    Proving Grounds, Maryland; Washington Aqueduct, Washington, D.C.; and the
    U.S. Army Reserve Command, Garden Grove, California. These interviews
    included an evaluation on the validity of 95 of 229 transactions processed for
    businesses that should have been blocked. These transactions occurred between
    October 1999 and July 2001.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    in the Acquisition Management high-risk area.

Methodology
    Use of Computer-Processed Data. To achieve the audit objective, we
    extensively relied on computer-processed data provided by Citibank and the
    U.S. Bank from the Citidirect and the Customer Automated and Reporting
    Environment systems. We applied data mining techniques to evaluate controls
    over issuing and using purchase cards, as well as the processing of purchase
    card payments. Data mining assisted on this audit with discovering previously


                                       28
    unknown relationships among the data. For example, we identified abnormal
    occurrences such as:

           •   approving officials without cardholders,

           •   cardholders without an approving official, and

           •   cardholders with more than one approving official.

    Although we did not perform a formal reliability assessment of the computer-
    processed data, we found some inconsistencies. Single micro-purchase and
    monthly spending limits for some cardholders were not correct in the bank
    systems. However, we did not find errors that would preclude use of the
    computer-processed data to meet the audit objective or that would change the
    conclusions in this report.

    Use of Technical Assistance. We received technical assistance from the
    Information Systems Directorate within the IG, DoD, Office of Administration
    and Information Management. Information Systems Directorate personnel
    loaded purchase card data from the banks on the IG, DoD, mid-tier computer.
    In addition, Information Systems Directorate personnel provided computer
    software that aided in performing queries of the purchase card data.

    We also received technical assistance from the Defense Manpower Data Center.
    The Defense Manpower Data Center performed computer searches to identify
    purchases that should have been blocked, purchases made by cardholders that
    approved their own bills for payment, and purchases made using convenience
    checks. The Defense Manpower Data Center also provided us with cardholder
    and transaction data for February and May 2001.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from January 2001 through January 2002 in accordance with
    generally accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and within the General Services Administration,
    General Accounting Office, U.S. Bank, and Citibank. Further details are
    available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of controls over the issuance and use of purchase cards at the Army
    Materiel Command; Naval Sea Systems Command; Air Combat Command;
    Headquarters, Marine Corps; Defense Contracting Command-Washington; Air
                                       29
Force 1st Fighter Wing; and the DoD Purchase Card PMO. We reviewed
FY 2000 annual statements of assurance required by the Federal Managers
Financial Integrity Act of 1982 for the Army, Navy, Air Force, other Defense
organizations, and the DoD-wide statement of assurance.

We also reviewed management controls at Fort Bragg, North Carolina; Fort
Campbell, Kentucky; Fort Sam Houston, Texas; Air Force Academy in
Colorado Springs, Colorado; Robbins Air Force Base, Georgia; Lackland Air
Force Base, San Antonio, Texas; Bolling Air Force Base, Washington, D.C.;
Aberdeen Proving Grounds, Maryland; Washington Aqueduct, Washington,
D.C.; and the U.S. Army Reserve Command, Garden Grove, California, to
evaluate the validity of transactions processed for businesses that should have
been blocked.

Adequacy of Management Controls. We identified material management
control weaknesses related to the purchase card program as defined by DoD
Instruction 5010.40. Controls over the purchase card program at some DoD
organizations visited or contacted were not adequate to provide reasonable
assurance that sufficient or effective internal controls existed.

Specifically, we verified that management control weaknesses existed with
cardholders serving as their own approving official at the Army Physical
Disability Agency at Walter Reed Army Medical Center, Washington, D.C.; the
Defense Security Service in Linthicum Heights, Maryland; the Joint Regional
Medical Planning Office and the public affairs office at Fort Meade, Maryland;
and the Office of Special Investigations at Andrews Air Force Base, Maryland.

Also, convenience checks were written for amounts greater than $2,500 at the
Defense Attache Training Service in Arlington, Virginia. In addition,
approving officials were responsible for more than 100 cardholder accounts at
the Army Medical Research Acquisition Activity at Walter Reed Army Institute
of Research, Forest Glen, Maryland, and the Naval Surface Warfare Center,
Indian Head, Maryland. Further, questionable purchases were made at the
National Naval Medical Center, Bethesda, Maryland.

Recommendations in this report, if implemented, will improve controls over the
purchase card program by assisting in meeting the goals of the program and
ensuring that the cards were being used appropriately and efficiently; and that
fraud, waste, and misuse were kept to a minimum. A copy of the report will be
sent to the senior official in charge of management controls for the
USD(AT&L).

Adequacy of Management’s Self-Evaluation. The PMO officials did not
perform a self-evaluation and, therefore, did not identify or report the material
management control weaknesses identified by the audit. However, the
Air Force and the Defense Logistics Agency reported a material control
weakness in the purchase card program.

        Air Force. The Air Force reported that its agency program coordinators
did not perform the required annual reviews on cardholder accounts. The Air
Force took corrective action by implementing Air Force Instruction 64-117,
“Air Force Purchase Card Program,” dated December 6, 2000, which requires
approving officials to perform 100 percent reviews every 12 months.

                                    30
            Defense Logistics Agency. The Defense Logistics Agency reported that
    an employee within its Document and Automation Production Service had
    misused a purchase card. The Agency took corrective actions by implementing
    a self-inspection program, organization-wide procedures to train and direct
    purchase cardholders and approving officials, and an internal review program.

    DoD-Wide Controls Over Purchase Cards. Although the Air Force and the
    Defense Logistics Agency identified weaknesses in the purchase card program,
    the PMO had not identified weaknesses in the system of controls within the DoD
    program, as cited in this audit report. The PMO stated that its staff consisted of
    only nine employees and that the DoD organizations had management control
    program officers to ensure compliance with established regulations and policies.

Prior Coverage
    During the past 7 years, Congressional committees, GAO, and DoD audit
    organizations have issued numerous reports discussing the DoD purchase card
    program.

    General Accounting Office. The GAO issued four reports relating to the DoD
    purchase card program. The most recent report, GAO Report No.
    GAO-02-506T, “Purchase Cards: Continued Control Weaknesses Leave Two
    Navy Units Vulnerable to Fraud and Abuse,” issued on March 13, 2002, was a
    followup of GAO Report No. GAO-01-995T, “Purchase Cards: Control
    Weaknesses Leave Two Navy Units Vulnerable to Fraud and Abuse,” issued on
    July 30, 2001. Both reports were issued as testimony before the Subcommittee
    on Government Efficiency, Financial Management, and Intergovernmental
    Relations, Committee on Government Reform, House of Representatives. GAO
    reports can be accessed on the Internet at http://www.gao.gov.

    DoD Audit Organizations. The IG, DoD, and audit organizations in the
    Military Departments and Defense agencies issued more than 300 reports on
    purchase cards between FYs 1996 and 2001. IG, DoD, Report No. D-2002-
    029, “Summary of DoD Purchase Card Program Audit Coverage,”
    December 27, 2001, identified systemic issues with the program. Also,
    IG,DoD, Report No. D-2002-065, “Summary of DoD Travel Card Program
    Audit Coverage,” March 18, 2002, identified systemic weaknesses in the travel
    card program.

    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports. The Military Departments and other
    Defense organizations’ reports can be viewed from the DoD Internet website at
    http://www.defenselink.mil/.




                                        31
Appendix B. Organization of the DoD Purchase
            Card Program




                      32
    Appendix C. Approving Officials Responsible for
                More Than 100 Cardholder
                Accounts *
       DoD Activity                              Major Command                   Number of
                                                                                 Approving
                                                                                  Officials
         Army               Headquarters Forces Command                                 5
                            U.S. Army Training and Doctrine Command                     1
                            Medical Command                                             1
                            U.S. Army Corp of Engineers                                 1
                            Army Medical Research Acquisition Activity                  1
                            National Guard Bureau                                     12
         Navy               Naval Sea Systems Command                                   2
                            Bureau of Medicine and Surgery                              1
         Air Force          Air Force Services Squadron (Nonappropriated                1
                            Funds)
                            Air Force Education and Training Command                   1
                            U.S. Air Force Academy                                     1
                            Service Squadron                                           1
        Defense             On-Site Inspection Agency                                  1
       Organizations
                            Defense Micro Electronics Activity                         1
                            Defense Information Technology Contracting Officer         1
             Total                                                                    31




*
    Data in this chart were current as of May 2001.

                                                      33
Appendix D. Cardholders Authorized to Approve
            and Certify Their Own Payments*
           Agency                                     Major Command                   Number of
                                                                                      Accounts
      Army                  Defense Contracting Command – Washington                        3
                            National Guard Bureau                                           5
                            U.S. Army Combined Forces Command – National Capital            8
                            Army Materiel Command                                           3
                            Military District Washington                                    3
                            Army Corps of Engineers                                         3
                            Training and Doctrine Command                                   2
                            Army Southern Command                                           5
                            Headquarters Forces Command                                    12
                            Army Contracting Command Europe                                 1
                            Office of Chief of Chaplains                                    3
                            National Guard Bureau                                          13
                            Medical Command                                                 1
      Navy                  Chief of Naval Operations                                       2
                            Bureau of Medicine                                             13
                            Naval Air Systems Command                                       1
                            Bureau of Naval Personnel                                       3
                            Naval Sea Systems Command                                       1
                            Marine Corps                                                    1
                            Atlantic Fleet                                                 11
                            Navy/Marine Corps                                               4
                            Navy Special Warfare Command                                    1
     Air Force              Air Force Space Command                                        14
                            Air Force Materiel Command                                      4
                            Air Mobility Command                                           10
                            Pacific Air Force                                               2
                            Air Force Services (Nonappropriated Fund Organizations)         5
                            Air Force Europe                                                3
                            Raytheon Support Services                                       1
                            Air Education and Training Command                              2
                            Air Force Reserve                                               2
                            Air Combat Command                                              3
                            Air Force Chaplain Services                                     2
     Defense                Defense Finance and Account Service                             3
     Organizations
                            Defense Logistics Agency                                        2
                            Defense Contract Management Agency                              1
                            Defense Intelligence Agency                                     3
                                                        Total                             156




*
    Data in this chart were current as of May 2001.

                                                       34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
     Director, Purchase Card Joint Program Management Office
  Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Army Materiel Command

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commandant of the Marine Corps
Commander, Naval Sea Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Combat Command
Commander, First Fighter Wing, Langley Air Force Base

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Missile Defense Agency




                                          35
Other Defense Organizations (con’t)
Director, Defense Threat Reduction Agency
Director, National Imagery and Mapping Agency
Director, Defense Contacting Command-Washington
Director, DoD Education Activity
Director, Washington Headquarters Services
President, Uniformed Services University of the Health Sciences

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                           36
Under Secretary of Defense, Acquisition,
Technology, and Logistics Comments




                        37
38
39
40
41
42
43
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, produced this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Kimberly A. Caprio
Kathryn M. Truex
Dennis L. Conway
Karen L. Jones-Moradian
Marcia L. Ukleya
Chelsea D. Pickens
Jason E. Alt
Michael T. Stokes
Lisa C. Rose-Pressley
